App. 1
NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on
opinions not certified for publication or ordered published, except as specified by rule
8.1115(b). This opinion has not been certified for
publication or ordered published for purposes
of rule 8.1115.
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE
G056170

FRED S. PARDES,
Plaintiff and Appellant,
v.

(Super. Ct. No.
30-2010-00391251)
OPINION

SUSAN DOAN,
Defendant and Appellant.

(Filed Aug. 13, 2019)

Appeal from an order of the Superior Court of Orange County, Melissa R. McCormick, Judge. Reversed
with directions.
Coleman & Horowitt, Gregory J. Norys, Gary S.
Shuster and Brandon A. Hamparzoomian for Defendant and Appellant.
Law Offices of Fred S. Pardes and Fred S. Pardes
for Plaintiff and Appellant.
*

*

*

App. 2
I.

INTRODUCTION

Lawyer Fred Pardes first sued his former client
Susan Doan in 2009 for unpaid fees. He knew a lot
about Doan’s assets: Pardes knew Doan controlled an
8-unit apartment complex in Long Beach known as the
“Rose property” through a revocable trust of which she
was the sole trustee and beneficiary. But Pardes’ case
was dismissed without prejudice by the superior court
because he did not give Doan notice of her right to arbitrate their fee dispute. Then, in 2010, Doan filed for
bankruptcy. She did not list her interest in the Rose
property as one of her assets. During the bankruptcy,
Pardes filed a second suit for fees against Doan, the
lawsuit before us now.
Pardes knew during the bankruptcy that Doan
had failed to list her interest in the Rose property as
one of her assets. But he didn’t tell the bankruptcy
trustee about it. Had he done so the asset would have
been available to all her creditors, not just Pardes. Instead, Pardes waited until after Doan obtained a discharge in bankruptcy. Then he obtained a default and
default judgment against Doan based on the 2010
state court action he had filed during her bankruptcy.
The trial court granted Doan’s motion to set aside the
default and default judgment, but did not declare the
2010 complaint void. That meant that Pardes could
pursue Doan once again in state court for his fees via
the 2010 complaint, though Doan would now have the
chance to fight the case on the merits.

App. 3
Both sides have appealed. As we explain below, because of the automatic stay that takes effect the moment a bankruptcy petition is filed (11 U.S.C. § 362),
Pardes’ filing of a state court complaint to collect his
fees during Doan’s bankruptcy was void ab initio. That
means the trial court never acquired subject matter jurisdiction over Pardes’ fee claim against Doan. Technically, the trial court could not even relieve the default
or the default judgment because it was without jurisdiction to do so; its only choice was to announce it had
no jurisdiction and dismiss the complaint. And that is
what we now direct it to do on remand.
II.

BACKGROUND

In March 2009, Pardes filed a complaint in Orange
County Superior Court (the 0068 case) against Doan
for allegedly unpaid fees. In the 0068 complaint Pardes
alleged, inter alia, that Doan was the equitable owner
of the Rose property in Long Beach via her control of
First Coastal Trust, a revocable trust that was the legal owner. The Rose property is an 8-unit apartment
complex in Long Beach.
The 0068 case was dismissed without prejudice in
January 2010 because Pardes had not given Doan notice of her right to arbitrate a fee dispute with a lawyer.
So later that same month, Doan requested state bar
arbitration of the fee dispute. She asserted she had
fired Pardes for conflict of interest, unfair practices,

App. 4
and the fact he was billing her for about $66,000 when
she really owed only $10,000 at most.1
Then, on April 16, 2010, Doan filed for bankruptcy.
She listed Pardes among her creditors. Those creditors
included Wells Fargo Home Mortgage and Capital One.
But she did not list the Rose property as among her
assets.
On July 20, 2010 – while Doan’s bankruptcy was
pending – Pardes filed this action in state court (the
1251 case) seeking fees allegedly due. He listed four
named defendants in his caption: Doan as an individual; the Susan A. Doan Trust; the First Coastal Trust;
and the Silverado Land Trust. He did not, however, include as a defendant Susan Doan as trustee of First
Coastal Trust.
Pardes has asserted that an address mix-up at the
Dana Point post office prevented his receiving notice of
Doan’s bankruptcy prior to his July 20, 2010 filing of
the 1251 case. But he certainly was aware of it by
August 23, 2010, when he wrote a letter to Doan’s
bankruptcy attorney complaining that the notice of
bankruptcy had been sent to the wrong address. That
letter indicated he intended to keep the 1251 case alive
and on file despite the pendency of bankruptcy proceedings: “Still waiting legal authority from your firm
confirming that I have to file a dismissal at the this
stage of the proceedings.” But Pardes did not dismiss
the 1251 case. Rather, in September 2010, he sent a
1

Our record does not contain any information illuminating
these allegations.

App. 5
notice of stay to the four defendants in the 1251 state
court case.2
Doan obtained a discharge order in her bankruptcy on January 8, 2011. The notice of discharge
listed at least 16 parties who appear to have been
Doan’s creditors, including both the Pardes Law Offices and Pardes’ professional corporation.
Pardes never brought the omission of the Rose
property to the attention of the bankruptcy trustee.
But about six months after the discharge, in June
2011, he filed in the 1251 action a notice declaring that
since First Coastal Trust had not been listed among
Doan’s assets in the bankruptcy, “Plaintiff may proceed
against this entity.” His intent was apparently to levy
on the Rose property, First Coastal’s only asset.
Pardes then sought to obtain Doan’s default.3 And
by November 2011, he had obtained both a default and
default judgment. That judgment provided for a base
recovery of $63,702.28, which was bumped up to
$98,179.46 with added interest.
Nothing happened for about five years. Then, in
2017, Pardes tried to levy on the Rose property. However, as his declaration for an amended judgment that
year shows, he could not levy on the property because
he had not named Doan “as trustee” of First Coastal
2

Since Doan was trustee of the three named defendant trusts,
she received the notices sent to all four defendants.
3
His June 2011 notice declared he was “concurrently seeking
a default at this time.”

App. 6
Trust. So he obtained an amended default judgment
which now included “Susan Doan as Trustee of First
Coastal Trust” as a separate defendant.
Doan, who was seeking to refinance the Rose property, soon discovered that Pardes had made a claim for
payoff. On October 19, 2017, she filed a motion in the
1251 case to set aside the default and default judgment.
Pardes countered by characterizing Doan’s failure
to include the Rose property as a fraud on the bankruptcy court. He emphasized that point by including,
as an exhibit in opposition to her set aside motion, his
own letter of August 23, 2010, to Doan’s bankruptcy attorney saying he saw no mention of the Rose property
in Doan’s bankruptcy filings. Doan responded by noting that while Pardes knew of the omission, he failed
to raise the issue while the bankruptcy case was still
ongoing.
When the motion was heard in late March 2018,
Pardes again stressed Doan’s omission of an asset in
her bankruptcy asset schedules. However, relying on
two Ninth Circuit cases, In re Schwartz (9th Cir. 1992)
954 F.2d 569, 570 (Schwartz) and Eskanos & Adler P.C.
v. Leetien (9th Cir. 2002) 309 F.3d 1210, 1214 (Eskanos),
the trial court ruled that the 1251 complaint was filed
in violation of the automatic stay provisions of bankruptcy law, and therefore the default and default judgment based on that complaint were void.
But the court declined to declare the 2010 complaint itself void, so as to require it to be dismissed. If

App. 7
the trial judge’s remarks at oral argument are any indication, the reason she declined to do so was because
no published California state case has yet to hold that
a state court complaint filed during bankruptcy is void
ab initio.4 Each side then timely appealed from the
part of the order aggrieving them. Since Doan filed
first, she is the appellant. Pardes is the cross-appellant.
III.

DISCUSSION

At oral argument in this court, Pardes strenuously
distinguished between the “commencement” of a state
civil suit against a debtor during the debtor’s bankruptcy, and the “maintenance” of such a state civil suit.
According to Pardes, the automatic stay imposed by
the bankruptcy law only nullifies the “maintenance” of
a suit; since he passively did nothing to “maintain” the
1251 action during Doan’s bankruptcy, he now asserts
he was free to pursue that action after the closure of
the bankruptcy case.
This argument is without merit. “Judicial proceedings in violation of the stay are void ab initio.” (In re
Gruntz (9th Cir. 2000) 202 F.3d 1074, 1082, fn. 6.) The
4

“I reflected on the issue myself. There’s case authority included in the tentative for the proposition that any action is avoid.
What concerned me – and I wrote this in the tentative, as well. I
have not been able to identify any published cases – you’re welcome to disagree with me if I’m wrong – where a superior court
has avoided [sic] a complaint under circumstances like this.” A
few moments later she said, “But in terms of voiding the complaint itself by a superior court judge, I didn’t see any authority
for that.”

App. 8
automatic stay rule applies to even the commencement
of state court proceedings as well as their maintenance.
(Estate of Horner v. Bailor (N.D. Cal. 2019) [2019 U.S.
Dist. LEXIS 47371 at p. 12] [“Civil actions commenced
in a non-bankruptcy court in violation of the automatic
stay are void ab initio and not merely voidable.”].) Such
actions are never valid and can have no effect. For example, a deed that is declared void ab initio passes no
title at all at the time the deed is made. (In re Marriage
of Jovel (1996) 49 Cal.App.4th 575, 584-585.)
The Ninth Circuit case that most dramatically illustrates this point is Schwartz, supra, because it
shows the rule applies as much to the Internal Revenue Service (IRS) as it might to a private litigant like
Pardes, and it demonstrates that it makes no difference whether the creditor knows the debtor has filed
for bankruptcy or not.
In Schwartz, taxpayers filed for bankruptcy in
1983. The IRS was not aware of the filing, and in 1984
assessed a $65,000 tax penalty against the taxpayers.
In 1985 the taxpayers dismissed their bankruptcy.
Then in 1987 the IRS filed a tax lien in King County
seeking additional penalties. The Ninth Circuit held
that even the IRS penalty assessment of 1984 was
“without effect.” (Schwartz, supra, 954 F.3d at p. 571.)
Indeed, the court noted the “majority of courts have
long stated that violations of the automatic stay are
void and of no effect.” (Id. at p. 572, italics added.) If an
IRS administrative assessment without knowledge of
the bankruptcy was of no effect (Schwartz), surely a

App. 9
state court complaint for attorney fees filed during a
bankruptcy can have no effect.
The other case cited by the trial court, Eskanos,
took the Schwartz ruling further by declaring that
creditors have “an affirmative duty to discontinue postpetition collection actions” in state court. (Eskanos,
supra, 309 F.3d at pp. 1214-1215.) Under Eskanos,
Pardes should have dismissed this case back in August
2010 when he learned of Doan’s bankruptcy.
To the degree Pardes does seem to acknowledge
the rule that a complaint filed in state court during a
bankruptcy is void ab initio, he argues that the rule
does not apply because of Doan’s unclean hands in
omitting the Rose property from her list of assets. This
argument is refuted by the fact the automatic stay
takes effect the moment a bankruptcy petition is filed.
(In re Elmore (C.D. Cal. 1988) 94 B.R. 670, 672.) Logically, then, violations of that stay cannot depend on the
accuracy of a debtor’s asset schedules, which may take
some time to analyze. Pardes is thus unable to cite any
authority to the effect that an unlisted asset in a bankruptcy schedule will in any way lessen the force of the
automatic stay.
Moreover, Pardes’ unclean hands argument is
completely vitiated by his own unclean hands in not
bringing Doan’s hidden asset to the attention of the
bankruptcy trustee back in 2010 when he had the
chance. Even if, for sake of argument, Pardes had no
legal obligation to tell the bankruptcy trustee about
Doan’s missed asset, his silence certainly forfeits the

App. 10
moral high ground he affects to take against Doan. Indeed, were we to articulate some special rule that
would render a state court complaint filed during a
debtor’s bankruptcy not to be void ab initio if it could
be later shown the debtor omitted assets, it would
give creditors like Pardes – creditors who are aware of
the omission – an unfair advantage over the debtor’s
other creditors. Such creditors would have a special
incentive to keep mum during the pendency of the
bankruptcy in order to pursue the omitted asset for
themselves on the chance the bankruptcy trustee or
bankruptcy court failed to discover it. We don’t think
Congress had that in mind in enacting the automatic
stay.5
It may be true that no published California opinion has yet to declare the obvious conclusion that flows
from the rule that any action taken in violation of the
automatic stay is void ab initio.6 However, the Supreme
5

On the other hand, the fact remains Doan did omit an asset
in her bankruptcy. We therefore deny her motion to sanction
Pardes for bringing a frivolous appeal.
6
Contrary to Doan’s assertion at oral argument, this court’s
opinion in Sindler v. Brennan (2003) 105 Cal.App.4th 1350 (Sindler) does not stand for such a proposition. There, a state court
action was filed prior to the defendant’s bankruptcy, and, after
the defendant filed for bankruptcy, the state trial court required
the plaintiff to report to it on the status of the bankruptcy. (Id. at
p. 1351.) Later, the plaintiff submitted a preprinted form to the
state trial court asking that the monitoring be suspended. But the
preprinted form also provided that unless the plaintiff filed a declaration prior to a certain date, the state court would dismiss the
action on its own motion. (Id. at p. 1352.) The plaintiff thereafter
obtained from the federal district court an order allowing her
claim to be adjudicated in state court. (Ibid.) It was then the

App. 11
Court of Kansas (United Northwest Federal Credit Union v. Arens (1983) 233 Kan. 514 (Arens)), and the intermediate appellate court of Illinois (Cohen v. Salata
(1999) 303 Ill.App.3d 1060 (Cohen)) have both squarely
so held. Arens and Cohen, in fact, involved patterns
very similar to the one here:
In Arens, the creditor filed a state court petition
for recovery of certain money the day after the bankruptcy was filed. Then, after the bankruptcy petition
was dismissed, the creditor obtained a default judgment. The Kansas Supreme Court held that “there was
no action on file” when the bankruptcy petition was
dismissed, so the trial court had no jurisdiction to
enter the default judgment. (Arens, supra, 233 Kan.
at p. 516.)
Likewise, in Cohen, the debtor filed for bankruptcy
about two weeks before the state court complaint. After a discharge order, the state court plaintiff resumed
the case, serving the debtor. The appellate court held
plaintiff learned her state court case had already been dismissed.
She asked the state trial court to set aside the dismissal. The state
trial court then denied that request. This court, however, reversed.
We noted the preprinted form was “misleading” because the applicable state rules of court governing bankruptcy monitoring did
not provide for the unilateral dismissal of the state court action
by the state court. (Id. at pp. 1353-1354.)
Sindler is a monitoring case, and one in which the plaintiff
eventually obtained permission from the federal court to pursue
her state court claims in state court. It is not one, like the instant
case, involving a state court action filed during a defendant’s
bankruptcy and where the creditor never obtained any kind of relief from stay from the bankruptcy court to pursue the debtor in
state court.

App. 12
the trial court didn’t have subject matter jurisdiction
to do anything other than “to announce” the fact it
didn’t have jurisdiction “and dismiss the cause.” (Cohen, supra, 303 Ill.App.3d at p. 1066.)
We see no reason to depart from the case law we
have found on this point. The trial court here did not
have subject matter jurisdiction even to set aside the
default or default judgment. The only jurisdiction it
had was to announce its lack of subject matter jurisdiction over Pardes’ 2010 complaint, and dismiss that
complaint. (See Goodwine v. Superior Court (1965) 63
Cal.2d 481, 484 [where there is a lack of subject matter
jurisdiction “the court must dismiss on that ground on
its own motion”].)
IV.

DISPOSITION

In light of the foregoing, we reverse all trial court
orders in this action and direct the trial court to dismiss the complaint.
This disposition, however, raises an interesting
question concerning costs on appeal. One might argue
that if the trial court had no jurisdiction to do anything
other than dismiss the case, then we likewise have no
jurisdiction to do anything other than direct the same
result, ergo we should not even award costs on appeal
to Doan, though Doan is clearly the prevailing party in
this appeal.
But we reject this line of analysis. “[C]ourts always,
by necessity, at least have jurisdiction to determine

App. 13
jurisdiction.” (Department of Fair Employment & Housing v. Verizon Cal., Inc. (2003) 108 Cal.App.4th 160,
168.) And we have statutory jurisdiction to ascertain
whether the trial court, in what was a postjudgment
order, had jurisdiction to allow the 2010 Pardes’ complaint to survive. (Code Civ. Proc., § 904.1, subd. (a)(2).)
Concomitantly, having such jurisdiction to decide
whether the trial court had jurisdiction to make the
postjudgment order here, we also have authority to
award costs on appeal. (Cal. Rules of Court, rule 8.278;
see Code Civ. Proc., § 1034, subd. (b) [“The Judicial
Council shall establish by rule allowable costs on appeal and the procedure for claiming those costs.”].)
Accordingly, in addition to our disposition reversing all trial court orders and directing the trial court
to dismiss this action, we also determine that Doan
shall recover her costs on appeal.
BEDSWORTH, ACTING P. J.
WE CONCUR:
FYBEL, J.
IKOLA, J.

App. 14
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE
FRED S. PARDES,

G056170

Plaintiff and Appellant,
v.

(Super. Ct. No.
30-2010-00391251)
ORDER

SUSAN DOAN,
Defendant and Appellant.

(Filed Aug. 29, 2019)

The petition for rehearing is DENIED.
BEDSWORTH, ACTING P. J.
WE CONCUR:
FYBEL, J.
IKOLA, J.

App. 15
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF ORANGE
CENTRAL JUSTICE CENTER
MINUTE ORDER
DATE: 04/02/2018

TIME: 10:19:00 AM

DEPT: C13

JUDICIAL OFFICER PRESIDING: Melissa R. McCormick
CLERK: Tamara Stiltz
REPORTER/ERM: None
BAILIFF/COURT ATTENDANT: Elizabeth A Perreault
CASE NO: 30-2010-00391251-CU-BC-CJC
CASE INIT.DATE: 07/20/2010
CASE TITLE: Pardes vs. Doan
CASE CATEGORY: Civil – Unlimited
CASE TYPE: Breach of Contract/Warranty
EVENT ID/DOCUMENT ID: 72784520
EVENT TYPE: Under Submission Ruling
APPEARANCES
There are no appearances by any party.
The Court, having taken the above-entitled matter under submission on 03/29/2018 and having fully considered the arguments of all parties, both written and
oral, as well as the evidence presented, now rules as
follows:

App. 16
Defendant Susan Doan as Trustee of First Coastal
Trust’s Motion to Set Aside Default, Default Judgment,
Amended Default Judgment, and Complaint
Defendant Susan Doan as Trustee of First Coastal
Trust (Trustee Doan) moves to set aside the default
and default judgment entered against First Coastal
Trust, the amended default judgment entered against
Doan as Trustee of First Coastal Trust, and the complaint filed in this case on July 20, 2010. Trustee
Doan’s motion was originally scheduled for hearing on
December 29, 2017; the court (Judge Robert Moss) requested supplemental briefing and continued the motion hearing to January 26, 2018. On January 26, 2018,
the court issued a tentative ruling on Trustee Doan’s
motion and held argument; following argument, the
court requested further supplemental briefing and
continued the motion hearing to March 2, 2018. The
case, including Trustee Doan’s motion, was thereafter
transferred to this court and the hearing on Trustee
Doan’s motion scheduled for March 29, 2018. This
court has read and considered all of the briefs and
other documents submitted in support of and in opposition to Trustee Doan’s motion. For the following reasons, Trustee Doan’s motion is granted in part and
denied in part.
Doan, in her individual capacity, filed for bankruptcy
on April 13, 2010. Plaintiff filed the instant lawsuit in
superior court against Doan individually, the Susan A.
Doan Trust, First Coastal Trust and Silverado Land
Trust on July 20, 2010. Plaintiff ’s lawsuit seeks to

App. 17
recover allegedly unpaid legal fees for legal work
Plaintiff alleges he performed for Doan.
On September 9, 2010, the superior court stayed this
case against Doan individually due to her bankruptcy
filing. On January 8, 2011, Doan received a discharge
in her bankruptcy case. On June 2, 2011, the superior
court entered the default of First Coastal Trust. On
November 14, 2011, Plaintiff dismissed his complaint
against Doan individually, the Susan A. Doan Trust
and Silverado Land Trust, leaving First Coastal Trust
as the sole defendant. Plaintiff obtained a default
judgment against First Coastal Trust on November 14,
2011 in the amount of $63,702.28. On June 29, 2017,
Plaintiff sought amendment of the default judgment to
add Doan as Trustee of First Coastal Trust. On August
3, 2017, the court entered an amended default judgment against “Susan Doan as Trustee of First Coastal
Trust” in the amount of $98,154.46.
Trustee Doan filed the instant motion on October 19,
2017. To the extent the time limits in California Civil
Procedure Code §§ 473 and 473.5 apply to Trustee
Doan’s motion, the court finds Trustee Doan filed her
motion within the time limits set forth in sections 473
and 473.5 because she was added as trustee to the default judgment against First Coastal Trust on August
3, 2017. Because the court rules below that the default
and default judgment were void and should be set
aside pursuant to California Civil Procedure § 473(d),
these time limits are likely inapplicable in any event.

App. 18
Upon the filing of a bankruptcy proceeding, federal
bankruptcy law imposes an automatic stay on all state
and federal proceedings against the debtor outside of
the bankruptcy court, subject to certain statutory exceptions not relevant here. State courts in which action
against the debtor are pending do not have the power
to modify the automatic stay; only the bankruptcy
court can do so. In re Gruntz (9th Cir.2000) 202 F.3d
1074, 1082-83 (en banc). The automatic stay is selfexecuting and is effective upon filing the bankruptcy
petition. In re Marriage of Sprague & Spiegel-Sprague
(2003) 105 Cal.App.4th 215, 219. It applies whether
the creditor is even aware of the bankruptcy. See
In re Schwartz (9th Cir.1992) 954 F.2d 569, 570 (invalidating federal tax assessment made in violation of
automatic stay despite IRS’s lack of knowledge of taxpayers’ pending bankruptcy). Any action, including
any judicial proceeding, taken in violation of the automatic stay is void. Gruntz, 202 F.3d at 1082; Sprague,
105 Cal.App.4th at 219.
By the plain terms of the statute, the automatic stay
precludes the continuation and commencement of
state judicial proceedings to collect on a claim against
a debtor. Eskanos v. Adler, P.C. v. Leetien (9th Cir.2002)
309 F.3d 1210, 1214. The mere maintenance of an active collection action alone adequately satisfies the
statutory prohibition against “continuation” of judicial
actions. Id. at 1215. Thus, the Ninth Circuit held in
Eskanos that when a state court collection action
against a debtor is initially filed after the automatic
stay goes into effect, the creditor has an affirmative

App. 19
duty to dismiss the action and can be sanctioned for a
willful violation of the automatic stay for refusing to
do so promptly upon learning of the bankruptcy. Id. at
1214-15.
Plaintiff filed the lawsuit in this case after Doan filed
for bankruptcy and while her bankruptcy case was
pending. Plaintiff ’s filing violated the automatic stay.
The default against First Coastal Trust and the default
judgment against First Coastal Trust to which Plaintiff later added Trustee Doan were entered after Doan
had obtained a discharge in her bankruptcy case. This
court concludes that the default and default judgment
are nevertheless void. Because of the automatic and
all-encompassing nature of the automatic stay, many
courts have specifically held that violations of the automatic stay are void and not merely voidable. Schwartz,
954 F.2d at 572. California courts also recognize this
rule. Sindler v. Brennan (2003) 105 Cal.App.4th 1350,
1353 (“Judicial proceedings in violation of the automatic stay are void.”). While this court has not located
any published case addressing the precise factual scenario here, i.e., a suit filed in violation of the automatic
stay where the plaintiff thereafter obtains a default
and default judgment in the improperly-filed suit after
the defendant-debtor has been discharged from bankruptcy, it would make little sense to permit violations
of the automatic stay â€“ even allegedly unintentional
ones â€“ to result in enforceable defaults and default
judgments against debtors. Moreover, Plaintiff only
obtained the default and default judgment he did because he filed suit in violation of the stay. Accordingly,

App. 20
the court concludes that the June 2, 2011 default
against First Coastal Trust, the November 14, 2011 default judgment against First Coastal Trust, and the
August 3, 2017 amended default judgment against Susan Doan as Trustee of First Coastal Trust are void
and should be set aside pursuant to section 473(d).
The fact that the initial default and default judgment
were entered against First Coastal Trust and the
amended default judgment was entered against Susan
Doan as Trustee of First Coastal Trust does not affect
the outcome of Trustee Doan’s motion. See 11 U.S.C.
§ 541(a) (“The commencement of a case under section
301, 302, or 303 of this title creates an estate. Such estate is comprised of all the following property, wherever located and by whomever held: (1) . . . all legal and
equitable interests of the debtor in property as of the
commencement of the case.”); Higgins v. Higgins (2017)
11 Cal.App.5th 648, 661.
Regarding the various issues about which the prior
court requested supplemental briefing, the court finds
as follows: First, Trustee Doan presented evidence and
authority that First Coastal Trust is a family trust,
not a business trust. See, e.g., In re St. Augustine
(Bankr. M.D.Fla.1990) 109 B.R. 494; Doan Supp. Decl.
¶¶ 5-8, 10 & Exs. A & B. Second, Trustee Doan presented authority that property not scheduled nevertheless becomes part of the bankruptcy estate. See, e.g.,
In re Sunquist (Bankr. E.D.Cal. 2017) 576 B.R. 858.
Third, a state court does not have concurrent jurisdiction to determine the scope and applicability of the
automatic stay with respect to a core bankruptcy

App. 21
proceeding. Sprague, 105 Cal.App.4th at 219. Bankruptcy courts have sole authority to determine the
scope of the automatic stay subject to federal appellate
review. Id.
Trustee Doan’s motion for an order declaring Plaintiff ’s July 20, 2010 complaint void is denied. Neither
party has addressed specifically the court’s authority
to void the filing of a complaint, even a complaint filed
in violation of the automatic stay, or the effect of such
a ruling. That Trustee Doan may have defenses to
Plaintiff ’s claims based on her bankruptcy case (something about which the court makes no findings) or that
Trustee Doan may elect to address the issues raised in
and by Plaintiff ’s complaint in bankruptcy court (see,
e.g., Eskanos, 309 F.3d at 1214-15) does not constitute
legal authority for the court to void Plaintiff ’s complaint as part of this motion.
Trustee Doan’s Request for Judicial Notice is granted
with respect to Exhibits 1 through 10. Judicial notice
of Exhibits 1, 3, 5, 6 and 9 is limited to the filing of
those documents in the respective courts and does not
encompass the truth of statements contained in the
documents. See Cal. Evid. Code § 452(d); Day v. Sharp
(1975) 50 Cal.App.3d 904, 914.
Plaintiff ’s request for sanctions is denied.
Trustee Doan is ordered to file and serve the answer
attached to her declaration as Exhibit A by April 12,
2018.

App. 22
A Case Management Conference is scheduled for
04/19/2018 at 01:30 PM in Department C13.
Court orders Clerk to give notice.

App. 23
Court of Appeal, Fourth Appellate District, Division
Three – No. G056170
S258008
IN THE SUPREME COURT OF CALIFORNIA
En Banc
FRED S. PARDES, Plaintiff and Appellant,
v.
SUSAN DOAN, Defendant and Appellant.
(Filed Oct. 30, 2019)
The petition for review is denied.
CANTIL-SAKAUYE
Chief Justice

